<html>
<title> - HEARING ON H.R. 1567, THE EASTERN WILDERNESS ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
            HEARING ON H.R. 1567, THE EASTERN WILDERNESS ACT

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                 TUESDAY, JUNE 17, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-35

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 43-700 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
               Dan Smith and Tod Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held Tuesday, June 17, 1997..............................     1

Statements of witnesses:
    Jarvis, Destry T., Assistant Director for External Affairs, 
      National Park Service......................................     4
        Prepared statement of....................................    39
    Kirby, Peter C., Southeast Regional Director, The Wilderness 
      Society....................................................     1
        Prepared statement of....................................    31
    McDougle, Janice, Associate Deputy Chief, National Forest 
      System, U.S. Department of Agriculture.....................     3
        Prepared statement of....................................    35

Additional material supplied:
    Text of H.R. 1567............................................    18
    The Atlanta Journal, October 2, 1994, ``Saving forests in the 
      meantime''.................................................    47


                 H.R. 1567, THE EASTERN WILDERNESS ACT

                              ----------                              


                         TUESDAY, JUNE 17, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    Mr. Hansen. Mr. Radanovich, questions of the panel?
    Thank you. You are welcome to join us on the dais if you 
are so inclined.
    Our next panel will be Destry T. Jarvis, Assistant Director 
of External Affairs, National Park Service; Janice McDougle, 
Associate Deputy Chief of the National Forest System, U.S. 
Department of Agriculture; and Peter C. Kirby, Southeast 
Regional Director of The Wilderness Society.
    We appreciate the three of you being with us today. And I 
guess, can everyone hold your testimony within 5 minutes?
    Mr. Jarvis. Yes, sir.
    Mr. Hansen. We appreciate that. You know the rules, same as 
a traffic light.
    Mr. Hansen. Mr. Kirby, we appreciate you taking the time 
and effort to be with us. That is kind of you to do that. We 
will start with you, sir, if you are ready.

 STATEMENT OF PETER C. KIRBY, SOUTHEAST REGIONAL DIRECTOR, THE 
                       WILDERNESS SOCIETY

    Mr. Kirby. Well, thank you, Mr. Chairman. May I commend 
you, first of all, for letting citizen witnesses go first 
before Federal agencies. That----
    Mr. Hansen. I want them to listen to what you have to say.
    Mr. Kirby. That is a pleasant change.
    Mr. Chairman, my name is Peter Kirby, the Southeast field 
representative for The Wilderness Society based in Atlanta. 
Founded near the Great Smoky Mountains National Park in 1935, 
The Wilderness Society has long worked to safeguard scarce 
opportunities for wilderness in the populous eastern United 
States.
    The Wilderness Society also maintains a Boston office where 
we focus on the conservation of the wildlands of the Northern 
Forest. The regional director in the Northeast is Bob Perschel, 
who is also here in the room today.
    Mr. Chairman, as you pointed out earlier, only a tiny 
fraction of all designated wilderness is located in the East. 
Of the 104 million acres of the National Wilderness 
Preservation System, less than 5 percent lies east of the 
Mississippi River. As you also pointed out, given that the 
population of the East is over four times higher than the West, 
this works out to over 80 percent of the population sharing 
less than 5 percent of the wilderness. This makes the eastern 
wilderness experience limited and crowded, as you said a moment 
ago. Also, as you mentioned earlier, there are ecosystems in 
the eastern forests that are found nowhere else, and you 
counseled that they should be preserved.
    In my region only 1 percent of the famed Southern 
Appalachian mountain region is preserved as designated 
wilderness. Popular Southern Appalachian wildernesses in each 
of the region States are already heavily used, and increased 
population and interest in the outdoors will mean even more 
visitor pressure. This is also true in the Northeast, Midwest 
and Central Atlantic States. Hence we do need more eastern 
wilderness for all of these reasons: recreation, ecology, 
watershed protection.
    For these reasons, The Wilderness Society supports section 
4 of H.R. 1567 for a fresh study of eligible Federal lands in 
the East. There would be a number of benefits from this 
section. First, it would clarify the national park and refuge 
units established after 1964 be reviewed for wilderness. It 
also would help clarify that wilderness tracts as small as 500 
acres are to be reviewed, and confirms that areas disturbed by 
human activity can qualify as wilderness through a natural 
reclamation. And finally it contains improved guidance that 
eligible areas should be managed to sustain their wilderness 
character while under review and after recommendation pending 
congressional action.
    H.R. 1567 also calls for the Federal Government to 
inventory and study State-owned lands that are eligible for 
wilderness under the expanded definition. A number of States 
already have national--wilderness preservation programs quite 
similar to Federal criteria. According to the work Wilderness 
Management by Hendee, Stankey and Lucas, a total of nine 
States, including seven in the East, have wilderness systems 
comparable to the Federal one. New York, for example, has 
established almost 1.2 million acres within its Adirondack and 
Catskill preserves. Minnesota has over 100,000 acres of State 
wilderness.
    According to Wilderness Management, the last survey of 
State-level activity in wilderness preservation was conducted 
in 1983. Mr. Chairman, we urge the committee to commission an 
updated survey undertaken jointly by Federal and State 
agencies. With input from the States, the study could also 
suggest an appropriate role. The most effective Federal role 
may be to offer planning assistance through these 2 agencies at 
Interior and USDA toward the goal of enabling all the States 
ultimately to have a system of wilderness preservation for 
State-owned lands comparable to the Federal one. We counsel 
that approach rather than the direct review of State lands by 
the Federal Government that is contained in this legislation.
    Finally, with regard to private lands in the East, H.R. 
1567 provides for the Secretary of Interior or Agriculture to 
directly inventory and study for wilderness private lands in 
the East.
    The Wilderness Society supports the goal of permanent 
protection through public acquisition for networks of 
wildernesses across the varied landscapes of the East. Given 
the limited amount of existing public land in the East, that 
will require over time that key tracts of private land be 
identified and conserved as wilderness through public 
acquisition. To make the country's actions toward this 
worthwhile goal as effective as possible, The Wilderness 
Society urges you and the other cosponsors to consider an 
approach that sets out more guidance on the priorities for land 
conservation, that fully engages the States and local 
governments in the identification and study of these private 
lands, and that recognizes a variety of conservation tools to 
accomplish these goals.
    Specifically, we urge the subcommittee to examine a 
prototype that has been developed after years of study and 
extensive public involvement, namely H.R. 971, the Northern 
Forest Stewardship Act. A centerpiece of this bill and its 
Senate counterpart is its section 6 on land conservation. This 
contains a number of useful features that can be incorporated 
in a general bill about conservation of wilderness in the East. 
Most notably it authorizes a public planning process, with 
technical and financial assistance from Federal agencies for 
requesting States in order to identify and set priorities for 
the acquisition of exceptional and important lands. We urge the 
committee to consider these features from H.R. 971 in drafting 
a revised section for review and protection of private lands in 
the East.
    Thank you again for your personal interest in the need for 
more wilderness in the East. And we support, as I said, the 
fresh review of Federal lands in the East and urge revisions to 
the sections on State and private lands.
    Mr. Hansen. Thank you very much. We appreciate your well-
thought-out testimony.
    [The statement of Mr. Kirby may be found at end of 
hearing.]
    Mr. Hansen. Janice McDougle, we will turn the time to you.

STATEMENT OF JANICE McDOUGLE, ASSOCIATE DEPUTY CHIEF, NATIONAL 
         FOREST SYSTEM, U.S. DEPARTMENT OF AGRICULTURE

    Ms. McDougle. Good morning, Mr. Chairman and Members of the 
subcommittee. We appreciate the opportunity to provide the 
views of the Department of Agriculture concerning H.R. 1567, a 
bill to provide for the study and designation of additional 
wilderness areas in the eastern United States.
    The Department of Agriculture does not support enactment of 
H.R. 1567.
    The Forest Service is extremely proud of its role in the 
outstanding success story the national eastern forests 
represent. Much of the land currently being considered for 
potential wilderness designation was once nothing but cutover 
forestland and worn-out farmland covered with brush and stumps. 
The lands nobody wanted have now become the lands everybody 
wants.
    The Forest Service manages 50 national forests and 
approximately 25 million acres of National Forest System lands 
east of the 100th meridian. When compared to the western 
national forests, most eastern forests are small, and ownership 
patterns are fragmented.
    The Forest Service manages 119 wilderness areas totaling 
nearly 2 million acres east of the 100th meridian as part of 
the National Wilderness Preservation System. Most units tend to 
be quite small. Only 37 areas are larger than 10,000 acres. 
Although geographically small, these areas loom large in their 
wilderness significance and due to their proximity to 
population centers of the East.
    The Department's primary objection to H.R. 1567 is that 
existing authorities and processes adequately address this 
issue as far as the National Forest System lands are concerned. 
The review and recommendation of areas for wilderness 
designation is already provided for when land and resource 
management plans are prepared.
    The direction to study all private lands east of the 100th 
meridian for possible wilderness characteristics is 
unprecedented and of such enormous scope that it would 
seriously hamper the ability of the Agency to manage lands 
currently under its jurisdiction.
    Most fundamentally private lands are not subject to 
designation as wilderness. We deem it highly improbable that 
private landowners will allow the inspection of their property 
for wilderness characteristics.
    Mr. Chairman, that concludes my summary of my statement. We 
will submit the full text to the committee, and I will be happy 
to answer any questions from the committee.
    Mr. Hansen. Thank you very much.
    [The statement of Ms. McDougle may be found at end of 
hearing.]
    Mr. Hansen. Mr. Jarvis.

STATEMENT OF DESTRY T. JARVIS, ASSISTANT DIRECTOR FOR EXTERNAL 
                 AFFAIRS, NATIONAL PARK SERVICE

    Mr. Jarvis. Thank you, Mr. Chairman. It is a pleasure to be 
here today.
    Before I refer to my formal statement, I wanted to comment 
that I very much support your sentiments expressed as you began 
your opening statement about the need for opportunity for 
experiencing wilderness in the East. As a young Boy Scout in 
the 1960's, my first 20-mile hike was in what is now the James 
River Face Wilderness on the George Washington National Forest. 
As an adult scout master of my son's scout troop, our boys have 
enjoyed the wilderness of Shenandoah National Park here within 
several hours' drive of Washington many times, and I truly 
believe that that opportunity must be available, and, I would 
suggest, is available. And the process by which additional 
wilderness in the East can be made available by acts of 
Congress is also available.
    I am happy to express the views of the Department of 
Interior on H.R. 1567. The Department of the Interior opposes 
this legislation. It essentially sets up a redundant wilderness 
study and review process for lands in the East.
    In the normal course of park system and refuge system 
planning, all areas under our respective jurisdictions have 
already been studied and are reviewed during the normal course 
of management planning for the management of these areas.
    The provision in H.R. 1567 that would suggest study of 
areas smaller than 500 acres, I believe, is also redundant. The 
provision of the 1964 Wilderness Act that refers to acreage 
says that one of the criteria for such an area is that it has 
to be at least 5,000 acres of land or is of sufficient size as 
to make it practicable--to make practicable its preservation 
and use in an unimpaired condition.
    As you will see by reviewing the acts of previous 
Congresses to designate wilderness in the East, there are 
existing wilderness areas in the East as small as 1 acre. The 
first statutory wilderness area in the National Wildlife Refuge 
System enacted in Congress in 1968 is an eastern wilderness 
area in the Great Swamp National Wildlife Refuge in New Jersey. 
In fact, if you look over the list of wilderness areas in the 
East administered by all of the Federal land agencies, you will 
find there are 2 in Alabama, 12 in Arkansas, 17 in Florida, 14 
in Georgia, 8 in Illinois, 2 in Kentucky, 3 in Louisiana, 1 in 
Massachusetts, 4 in Maine, 14 in Michigan, 3 in Minnesota, 8 in 
Missouri, 3 in Mississippi, 12 in North Carolina, 4 in New 
Hampshire, 2 in New Jersey, 1 in New York, 1 in Ohio, 2 in 
Pennsylvania, 7 in South Carolina, 11 in Tennessee, 16 in 
Virginia, 6 in Vermont, 7 in Wisconsin, and 5 in West Virginia.
    There are, Mr. Chairman, areas that have been studied by 
both the Park Service and the Fish and Wildlife Service in the 
East that have not as yet been acted on one way or the other by 
the Congress. If this committee is interested in pursuing the 
designation of additional wilderness in the East, I would 
suggest that that is the place to focus the committee's 
attention.
    Forty-three of the 50 states in the United States have 
statutory wilderness areas, and we believe that the opportunity 
to designate additional areas in the East or the West is 
available to this committee and to the Congress under existing 
provisions of law. And in the case of the National Park System, 
there are 43 million acres in the National Park System that are 
designated wilderness, well more than half of the National Park 
System, 1.4 million acres of which are in units of the National 
Park System in the East.
    In the case of the National Wildlife Refuge System, there 
are nearly 21 million acres of statutory wilderness, 38 areas 
of which are east of the 100th meridian.
    I believe that will suffice for my testimony today, Mr. 
Chairman. I would be happy to answer any questions.
    Mr. Hansen. Thank you very much. I appreciate your 
comments.
    [The statement of Ms. McDougle may be found at end of 
hearing.]
    Mr. Hansen. Of all four of our witnesses that we have 
there, I think it is very interesting that both the Park 
Service and the Forest Service have talked about the redundancy 
of the act. I think if you will go back and read the 1964 
Wilderness Act, it calls for a reinventory every 10 years. So 
you do have the right to do that under the statute.
    I also think it is interesting, when we talk about the 
areas already studied, as you know, if I may be parochial and 
talk about my own State of Utah, under BLM we spent 15 years 
and $10 million studying the BLM wilderness. That is a lot of 
money and a lot of time. Yet, Secretary Babbitt, your boss, Mr. 
Jarvis, came in last year and said it wasn't done right, and he 
was supposed to do it all over again.
    Mr. Jarvis. Well, in the course of doing general management 
plans for units of the National Park System, which we, by 
policy, although not always timely in terms of adequacy of 
funding, do review areas every 10 years. Sometimes it slips to 
every 15 or 20 years in the course of doing management plans, 
and in each case a wilderness review is undertaken. Now, in 
some areas, obviously small historic sites and such would not 
have any acreage that qualifies. Other areas are reviewed, and 
periodically our recommendations change. As new areas are 
added, developments occur and render a site unqualified, or 
facilities are removed and render a site available for study.
    Mr. Hansen. I am just pointing out the inconsistency, no 
disrespect to anybody, but of your argument and with what your 
boss is doing. He comes into our area and says it is going to 
be reinventoried. The State of Utah sued Mr. Babbitt, and they 
won in district court when Judge Benson said he couldn't do 
that. So basically we go back to the bill.
    You also mentioned all of those areas you have, I am sure 
you have seen that, showing what you all had. Those that you 
mentioned are minuscule; in fact, east of the 100th meridian, 
4,463,077 acres. West it is 98,348,245.
    Now, as a past scout master I am sure you can take some 
kids into some very nice areas. The people in the West have the 
opportunity of going to the most gorgeous areas in the world 
within minutes, relatively speaking. In the High Uintas, the 
biggest piece of wilderness in the lower 48 prior to the 
California Desert Protection Act, where they can go up to Kings 
Peak, they have got a huge area, 500,000 acres, that they can 
go in. Where do you find anything like that west of the 
Mississippi--east of the Mississippi? I mean, you have got 
little teeny pockets of it.
    You also talked about the idea, both you and Janice 
McDougle, about the size of 5,000 acres. I don't know how you 
can say that because half of those--more than half of those you 
are looking at in the East are under that size restriction, 
just little teeny pockets of it. That is why we think this bill 
is important, because it reduces that from 5,000 acres to 500.
    Then let's get real around here and also talk about what 
about the bills that are being proposed? If I again may use the 
State of Utah or California or Idaho or Montana or Wyoming or 
Colorado, all of the bills proposed, there are pieces, dozens 
of pieces, less than 5,000 acres. In fact, in H.R. 1500, which 
we are having a hearing on on June 24th, there is a piece as 
small as 47 acres. So maybe we can say these things, but let's 
be honest about it. That really doesn't occur. Actually, 
whatever Member of Congress wants to put one in, if he wants to 
put in a square block, and he can get it through both houses 
and the President signs it, that becomes a wilderness area. If 
you can throw a baseball across it, it becomes a wilderness 
area, so I----
    Mr. Jarvis. Mr. Chairman, if I may?
    Mr. Hansen. Surely.
    Mr. Jarvis. The provision of the Wilderness Act of 1964 
that I quoted, I intended to imply we do, in fact, intend to 
study, and Congress has, in fact, designated areas much smaller 
than 5,000 acres, but the criteria is that they be of 
sufficient size to make its preservation as wilderness and its 
use in providing wilderness experience possible. In Fire Island 
National Seashore, there are about 1500 acres of wilderness in 
the so-called 8-mile natural zone, which I have hiked. And in 
view of the Manhattan skyline, one can, in fact, have a 
wilderness experience. In that hike I pulled more than 100 
ticks off me after that hike. And I can say that even with the 
Manhattan skyline in view down behind the Holly Forest, behind 
the dunes and so forth, you can have an experience of solitude 
that close to millions of people.
    I would not suggest by any means that these areas of small 
size should not be studied, and often are studied, found 
qualified, recommended and designated by Congress as a----
    Mr. Hansen. I am glad to see you come to our way of 
thinking, Mr. Jarvis. I appreciate it, and I agree with that. 
Excuse me. Go ahead.
    Ms. McDougle. Mr. Hansen, we also have criteria for areas 
smaller than 5,000 acres.
    Mr. Hansen. Dozens of them, I may point out.
    Ms. McDougle. Yes.
    Mr. Hansen. And all through the West.
    Mr. Kirby, a comment?
    Mr. Kirby. Can I followup, Mr. Chairman, on your 
observation about the Federal Land Policy and Management Act.
    Mr. Hansen. Surely.
    Mr. Kirby. Because there is a feature of that bill which 
would be very helpful to add to the legislation affecting the 
national forests. There is no protection for areas on national 
forestland in the East even after they have been identified as 
roadless and are being studied for wilderness.
    In the BLM Organic Act, there is such interim protection 
for areas while they are being studied for wilderness. This is 
necessary in order to give some integrity for the study 
process, not only for the public that is participating, but 
also for Congress while you are looking at these 
recommendations for or against.
    So that is one feature of the law dealing with national 
forests that would be very worthwhile, to have some interim 
protection required by legislation for areas while they are 
being studied for wilderness until Congress has had a chance to 
review them.
    Mr. Hansen. Thank you. It is a good observation.
    I normally don't come on first, but I have another meeting, 
so that is why I am going first. I hope I have your permission, 
Mr. Faleomavaega.
    Let me just add one other thing. Two of you have talked 
about the idea of State and private land. Let me remind you and 
refresh you that, Mr. Jarvis, your organization that you worked 
for, I have spent 17 years trying to get inholdings out of 
areas where parks have been put that have got private land, 
where right over the top of private ground we now have a 
national park. So that is kind of a two-way street here.
    Let me also point out that State land--take, for example, 
your President--our President, excuse me, who stood safely in 
Arizona last September 18th, never having been on the ground 
before, and put 1.17 million acres in a national monument, 
which, in the opinion of me and most Members of this committee, 
took away most of the protection it had; 200,000 acres of that, 
State ground, plus hundreds of acres of private ground.
    So to say that, oh, gee, this is private and public ground, 
we can't do anything with it, you do it all the time. It is 
done constantly.
    Furthermore, I may point out, he waived NEPA, FLPMA and the 
Wilderness Act and gave--took away all the protection that was 
there before for a monument, which did have three beautiful 
pieces of WSAs in it, that should be preserved, should be put 
in wilderness, which will probably now have four-wheelers 
booming all over it, and it will be a tragedy, and there will 
probably be airports and hotels and all of those things, 
because of the misunderstanding of this administration of the 
laws of the land.
    With that said, I will turn to my good friend Mr. 
Faleomavaega, who whispered to me that maybe all of the Federal 
lands should be turned to the States. Interesting idea you have 
come up with.
    Mr. Faleomavaega. Mr. Chairman, though, what I was 
suggesting, because of the fact that so many of the western 
States and the Federal lands are--a great percentage of the 
State is owned by the Federal Government, basically, in my 
reference to the public lands, like the States of Utah, Nevada, 
Colorado, why don't we condemn the State owned lands on the 
eastern border and make them Federal lands and see how the 
eastern States feel about it?
    Mr. Hansen. Go ahead. It is all right with me. If you 
introduce your bill, it will probably have some great 
administration in it.
    Mr. Faleomavaega. Yeah, right. Thank you, Mr. Chairman.
    I wanted to ask Mr. Kirby, is it your feeling that, despite 
the fact that there is current law in the statutes to provide 
studies for wilderness and all of that in the eastern States, 
that the Federal Government is not doing enough; is that 
basically your position?
    Mr. Kirby. My position is that there are some useful 
clarifications that could and should be made with regard to the 
Federal studies. As I mentioned a moment ago with regard to 
national forests, there is an urgent need to have some interim 
protection for the areas while they are being studied. In my 
region of the Southern Appalachians, 1 percent of the region is 
designated wilderness, and yet the Forest Service is doing 
timber sales and building roads into the few scarce areas that 
are being studied for additions to that as we speak.
    In addition, there is no clear requirement that national 
parks and refuges added after 1964 should be reviewed for 
wilderness, so that would be a useful requirement. So those are 
two examples, sir.
    Mr. Faleomavaega. I would like to ask our two agency 
friends from the USDA as well as the Department of Interior and 
Park Service, have your agencies literally studied the 
suitability of designating Federal lands as wilderness in the 
eastern United States since the enactment of legislation in 
1964? Have there been studies made, in fact?
    Mr. Jarvis. Yes, sir. As a matter of fact, I intended to 
convey to the committee that the Park Service, I believe, and 
the Fish and Wildlife Service routinely study areas for 
potential designation as wilderness in the course of management 
planning for parks and refuges.
    Mr. Faleomavaega. How many of those studies?
    Mr. Jarvis. In the case of national parks, Presidents 
Nixon, Ford and Carter had formerly recommended wilderness 
designation in units of the park system in 17 areas over the 
years that have not been acted on one way or the other by the 
Congress.
    Mr. Faleomavaega. Ms. McDougle.
    Ms. McDougle. With the Forest Service what we have done, 
and this is rather timely, most of our forest plans in the East 
are either scheduled or in some stage of revision. An inventory 
of roadless areas was already done, has already been done, for 
the Southern--under the Southern Appalachian assessment. No 
recommendations were made. The information was provided. And as 
these forest plans are being revised, land suitable for 
wilderness will be crafted as part of that document.
    So I guess what I am saying is because so many of the plans 
are now under revision, this is our opportunity to take a look 
at that and at the local level and at the forest level and 
decide what should come forward.
    Mr. Faleomavaega. I am a little confused here. Maybe you 
could clarify it. As we passed an Eastern Wilderness Act since 
1975, this is 22 years now, would you say that these studies 
that were made--as authorized by law in 1975 have been 
comprehensive enough to satisfy my good friend from Utah and 
good Members of this committee, or do you think--I guess the 
impression--the reason for the proposal of the 1567 is that the 
agencies responsible for this just have not been doing their 
job.
    Mr. Jarvis. Well, I--sir, I would certainly disagree with 
that. I think we have done our job. I think we have studied 
these areas. It is a routine core of management planning. We 
have made--we have recommended those areas found to be 
qualified for wilderness, and while there are a few recently 
designated units of the National Park System that have not to 
date had wilderness studies, they will have in the course of 
their management planning, and, if found to be qualified, so 
recommended.
    Mr. Faleomavaega. Go ahead. I am sorry, Ms. McDougle.
    Mr. Jarvis. That is all. I was just going to say it then 
becomes a subject of the possibility of action by the Congress 
as to whether to designate wilderness or not. In the case of, I 
believe, all of our agencies, once an area has been 
recommended, it is managed as if it were wilderness until such 
time as Congress acts, so that once studied and recommended, 
the management practices of any of our agencies would not 
compromise its potential for designation as wilderness by a 
later Congress.
    Mr. Faleomavaega. Mr. Jarvis, can you submit for the record 
exactly the number of studies that your Department or Agency 
have taken since the enactment of this law in 1975?
    Mr. Jarvis. Yes, sir.
    Mr. Faleomavaega. And then where are we exactly by way of 
status of each of those studies?
    Mr. Jarvis. Indeed.
    Mr. Faleomavaega. Could you please provide it, if that is 
all right with the Chairman?
    Mr. Jarvis. Sure.
    Mr. Faleomavaega. Or do we already have that by record?
    Mr. Kirby. Could I recommend an addition to that question, 
which is to ask the National Park Service what units have not 
been studied in the East for wilderness?
    Mr. Faleomavaega. Yes, sure.
    Mr. Kirby. Because I believe there are some units where we 
think there are eligible lands that have not been studied, like 
the Blue Ridge Parkway and the Big South Fork of the Cumberland 
River, to name two in my region.
    Mr. Faleomavaega. Mr. Jarvis, can you help us with that?
    Mr. Jarvis. Yes, sir. I'll be happy to provide that 
information.
    Mr. Faleomavaega. Ms. McDougle.
    Ms. McDougle. The only thing I was going to say was that I 
think instead of viewing us as not having done our jobs, I 
think what we have done is institutionalized the need to do 
that in existing processes.
    Our forest plans are revived every 10 to 15 years, and as I 
mentioned earlier, most of the national forests in the East are 
either scheduled for revision in the next year or two or 
already under revision. And in completing that process, this is 
1 piece of the information that is--that is crafted as part of 
a forest plan, but we can provide you what actions we have 
taken as well as a schedule of those forest plans and where 
they are in revision and what areas are being looked at that 
have been inventoried in the Southern assessment.
    Mr. Faleomavaega. Ms. McDougle, let me--I am trying to get 
the gist of your statement, Ms. McDougle. You say that usually 
it will take about 10 to 15 years for a policy change----
    Ms. McDougle. No, no, no.
    Mr. Faleomavaega. [continuing] or to do a study.
    Ms. McDougle. We are required to revise our forest plans no 
later than 10 to 15 years.
    Mr. Faleomavaega. But it takes 10 to 15 years to do the 
change?
    Ms. McDougle. No, it takes--it takes usually 3 to 5 because 
of all the process and the public input that we have to follow.
    Mr. Faleomavaega. You mentioned something about 119 
wilderness areas east of the----
    Ms. McDougle. East of the meridian, 100th meridian, yes.
    Mr. Faleomavaega. And what does that mean? You--these are 
19 wilderness areas that have been declared by USDA in the 
eastern United States.
    Ms. McDougle. No, they have been declared by Congress.
    Mr. Faleomavaega. You are just doing the studies for them.
    Ms. McDougle. No, they are designated wilderness areas 
declared by Congress.
    Mr. Faleomavaega. Mr. Kirby.
    Mr. Kirby. Let me add a point on this, on this very issue. 
We applaud the efforts of the Forest Service to recommend these 
areas for wilderness, and we have supported congressional 
efforts to designate them. As you just noted, there are a 
number of areas in the East. They tend to be very small. The 
national forest wilderness in the Southern region, for example, 
average less than 10,000 acres as opposed to the national 
average for wilderness, Mr. Hansen, of about 40,000 acres. So 
there is not only the need for more wilderness areas in the 
East and Southeast, for example, but also larger areas for 
reasons of recreation, like to have extended backpacks like you 
mentioned, but also for reasons of ecology to accommodate the 
needs of wildlife that have large ranging habitats, like black 
bear.
    Let me also say that we do have to disagree with Ms. 
McDougle about the adequacy of the inventory of roadless areas 
in the Southern region. The Forest Service has left out many 
deserving areas for reasons that we think are invalid and 
reasons that, in fact, have been corrected by Congress. Areas 
are being left out in the Southern Appalachians, for example, 
because they are close to cities and towns.
    Mr. Faleomavaega. I think this is exactly the gist of what 
the gentleman from Utah in his proposed bill is trying to do. 
Where exactly are we falling into the cracks here, Ms. 
McDougle?
    Mr. Kirby. For the committee's benefit, sir, could I 
followup with a list of examples of these?
    Mr. Faleomavaega. Please.
    Mr. Kirby. Because the Forest Service is actually acting in 
clear contravention of past congressional guidance not to 
qualify areas because of sites and sounds. For example, Mr. 
Hansen, the Lone Peak area wilderness right outside Salt Lake 
City would not have been designated if the Forest Service had 
used these criteria, but Congress stepped in and designated it 
as, you know, in the American Endangered Wilderness Act of 
1978. So we would like to submit some examples for the record 
of this.
    Mr. Faleomavaega. Could you please, Mr. Kirby, because I 
noticed here of the acres of wilderness by States, that New 
York has only 1,363 acres; Indiana, 12,953 acres; Utah 801,150 
acres. Some of these populous States, Ohio has only 77 acres.
    There is a disparity, no doubt, in the record here, and I 
just want to note that for the record, and I thank the 
Chairman.
    Mr. Hansen. And I thank the gentleman.
    The gentleman from California, Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman.
    As you mentioned, I am from California where 50 percent of 
the State is owned by the Federal Government, and I do--I am 
hearing some numbers, and I hope somebody can clarify it for 
me. I guess in the original wilderness legislation, 5,000 acres 
or more was the--was the mark where--through the Chairman's 
bill proposing to bring it down to 500. Yet I am hearing there 
is a wilderness area somewhere in the East that was included 
the size of 1 acre. Mr. Jarvis, can you clarify what gave you 
the authority to do the 1 acre? And does that recommend that, 
perhaps, we should lower the 500 minimum down to perhaps 1 
acre, if that is what you are doing already?
    Mr. Jarvis. Well, the provision of the 1964 Wilderness Act 
that I quoted earlier provides the authority to study the 
Federal lands of any size essentially for possible designation 
by Congress as wilderness. It says an area that has at least 
5,000 acres or is of sufficient size as to make it--as to make 
practicable its preservation and use in an unimpaired 
condition.
    So in the case of these smaller areas, they tend to be 
islands so that, surrounded by water, the water not being 
designated by wilderness nevertheless buffers the land and 
creates the opportunity for a wilderness experience and for it 
to be managed as wilderness. There are many areas in the East 
smaller than 5,000 acres that have been designated as 
wilderness by Congress and we would routinely study in the 
course of management planning and parks and refuges, areas of 
any size, to see if they are qualified. Oftentimes, even in 
Shenandoah National Park, which has 79,000 of its 193,000 acres 
would----
    Mr. Radanovich. But that would include private land as 
well?
    Mr. Jarvis. No, no. The Wilderness Act specifically 
precludes the designation of private land or any non-Federal 
land as wilderness, and we don't study those lands. Now, often 
the Federal land, as the Chairman pointed out, is checker-
boarded or mixed ownerships of Federal, State, or private land. 
When we do a wilderness study, we are not studying the State 
land or the private land, and we are not recommending that it 
be designated as wilderness.
    Mr. Radanovich. OK, excuse me.
    Mr. Jarvis. When wilderness is designated, though----
    Mr. Radanovich. Thank you.
    Mr. Jarvis. [continuing] it sometimes affects the private 
or State lands in terms of access, although access to those 
lands is guaranteed.
    Mr. Radanovich. OK. Mr. Jarvis, thanks. OK. Thanks. Thanks.
    Since the Wilderness Act was enacted, 98 million acres have 
been brought into its designations west of the meridian, 4 
million acres east of the meridian. Is that because of the 
disproportionate share of Federal land ownership between those 
two regions in the first place? And if so--I would appreciate 
an answer to that one.
    Mr. Jarvis. Yes. I believe the answer is yes.
    Mr. Radanovich. And also can you honestly tell me there is 
only 4 million acres of wilderness that would qualify--Mr. 
Jarvis I asked the first question. Mr. Kirby, I will have a 
question for you next. Is that the reason why? Is it mainly 
because of the disproportionate share of ownership, Federal 
hand ownership, between the East and the West?
    Mr. Jarvis. Yes, sir.
    Ms. McDougle. And that is true for the Forest Service as 
well.
    Mr. Radanovich. Then can you give me a number that would 
say that all of the Federal lands east of the Mississippi were 
brought into wilderness--what would that--how would that 
number, the 4 million acres, 4.4 it looks like currently in 
wilderness, how would that number--what would it go up by? What 
would the total acreage----
    Ms. McDougle. I can't answer that question. I am not sure I 
understand it.
    Mr. Radanovich. OK, because it concerns me that, when we 
are out to protect the resources of this country and also to 
provide for human population the ability to enjoy wilderness, I 
would think that it should be the mission of the Forest Service 
and National Park Service to designate absolutely just as much 
land is available for a wilderness designation and certainly 
closer to the populations that can enjoy it. And that is why 
I--a real concern of the administration's objection to this 
bill to also study private and other lands as well.
    But here is the bottom line. You were tasked in 1975 with 
designating wilderness across the United States. So far you 
have been able to designate 98 million acres in the West and 
only 4 million in the East. Mr. Kirby, my question is if we 
could study Federal and private land, State land, east of the 
100th meridian for wilderness, how many acres do you think we 
can come up with?
    Mr. Kirby. Well, maybe we can take those in order if you 
would like. First of all, we would be happy to venture a guess 
about the additional Federal lands that could be added as 
wilderness----
    Mr. Radanovich. Please.
    Mr. Kirby.--let's say in the next 5 years for this 
committee.
    Mr. Radanovich. Please.
    Mr. Kirby. Would you like us to submit a list and some 
rough guess of what those might be?
    Mr. Radanovich. Please. Yes, and some acreages as well. 
Sure.
    Mr. Kirby. Sure.
    Mr. Kirby. For example, there are substantial national 
forest lands that could contribute to this. There are some 
additional national park units that could be designated, for 
example. So that total would go up.
    And then with regard to State lands, and also in response 
to your question, sir, there are some State wilderness systems 
that have substantial areas. Like in New York, which you 
referred to earlier, there is a State wilderness system that 
contains about 1.2 million acres in the Catskills and 
Adirondack reserves. Those are virtually comparable to Federal 
lands.
    Mr. Radanovich. And they are not in wilderness already?
    Mr. Kirby. They are in State wilderness, sir.
    Mr. Radanovich. Oh.
    Mr. Kirby. And what I am suggesting in my testimony is this 
committee set up some sort of a survey to see what sort of 
State wildernesses there are, because a number of the eastern 
States have these wilderness systems. Actually, the closest 
designated wilderness to where we are sitting right now is a 
State wilderness area in Maryland. It is even closer than 
Shenandoah National Park, which is the closest Federal area.
    So that is a useful item of information for this committee 
to have, because those lands contribute to meeting the needs 
for wilderness that Mr. Hansen spoke about at the outset. And 
there could be a very valuable Federal law in assisting other 
States that might be interested in how they would set up State 
systems in States like Pennsylvania, for example, that have 
substantial State land; or New Jersey, for example, in the pine 
lands.
    Mr. Radanovich. So----
    Mr. Kirby. We could come up with some kind of a rough total 
for how those lands might contribute to wilderness. We would 
urge, however, that they stay with the administration of the 
States.
    Mr. Radanovich. You mean State and Federal land, and not go 
to private; is that what you are saying?
    Mr. Kirby. In other words, State areas established by 
wilderness, let's say New York or Maryland, continue to be 
administered by the States. That is what we recommend. Given 
the fiscal constraints you all have, let's not have to spend 
money needlessly buying those under Federal----
    Mr. Radanovich. Well, I think the objective of the act, 
though, is to provide wilderness designations for the enjoyment 
of people. And my concern is for children in New York City and 
all the children along the eastern seaboard who, you know, were 
poor and can't get to the West to enjoy all this land that has 
been put into wilderness designation. My concern is for those 
children. And I think if the Federal Government has a concern, 
it should be that as well.
    And I think we ought to begin looking at some of those 
lands along there that are closer to urban populations, be it 
down to 1 acre, because it is closer, understanding that those 
lands in the East may never be at parity by acreage to those in 
the West, but the numbers should be just as disproportionate as 
the land is between the East and the West, therefore meaning 
that there should be thousands of wilderness areas in the East, 
be it 1 acre, 5 acres, 500 acres, I don't care, but that is 
where the population of the United States is more focused. And 
so therefore, in even small wildernesses, should be located 
closer to those population centers.
    Mr. Kirby. We fully agree. And what I am proposing is that 
a very cost-effective role for the government might be to work 
with the States to help them set up state wilderness 
perservation systems for lands that are already owned by 
States.
    Mr. Radanovich. Thank you.
    Mr. Kirby. And as a first step toward that maybe the 
committee could just survey what is the existing status of 
State wilderness systems.
    Mr. Radanovich. Is the State wilderness land, is it, in 
your opinion, protected well? Do they do a good example or----
    Mr. Kirby. Well, in the work wilderness management, which I 
cited earlier, there was a survey done to see what State 
systems were essentially equivalent to Federal systems as they 
would be managed by these agencies here. And the book 
identified nine States, including seven in the East, that have 
programs comparable to the Federal one, such as Minnesota and 
New York.
    Mr. Radanovich. So that, in your opinion, if the State set 
up a good wilderness protection program, then it may not--then 
they maybe should bail out of the wilderness program if there 
is one active in their State already, a Federal wilderness 
program----
    Mr. Kirby. What I am saying----
    Mr. Radanovich. If that were to happen in the West, I guess 
that is my question.
    Mr. Kirby. No, what I am saying, sir, is that we should 
encourage other States to do likewise through technical and 
planning assistance. Many of them may wish to do so, but just 
have never focused on it. Some States in my region, like 
Alabama, are setting up State wilderness systems as we speak. 
There's legislation moving through their assembly to do so. I 
think that is all to the good.
    Mr. Radanovich. Well, in my opinion, it is what is good for 
the goose is good for the gander. And if New York is doing a 
good job managing wildernesses within their State system, then 
so should California be able to do the same.
    Mr. Kirby. And California does have a State wilderness 
system, as does Alaska, to mention two of the western States.
    Ms. McDougle. I would like to make a statement. I would 
request and would hope that should you proceed in reviewing 
lists of additional proposed sites for wildernesses, that you 
work closely with the agencies especially, and I am thinking 
about the multiple use mandate and all of our publics that we 
serve, and so that I hope that as you proceed with--with any 
decisions on specific areas that--that you will work with the 
agencies on this.
    Mr. Radanovich. Thank you.
    Mr. Hansen. Thank you.
    Ms. McDougle, your own documents, Forest Service documents, 
acknowledge that most of the Forest Service lands were acquired 
from private ownership and that the lands east of the 100th 
meridian are quick to themselves from man's influence.
    Ms. McDougle. Uh-huh.
    Mr. Hansen. If this is the case, why does the Forest 
Service oppose looking at acquiring public lands to supplement 
our current wilderness areas in the East.
    Ms. McDougle. I didn't say that the Forest Service was 
opposed to acquiring wilderness areas in the East. What I said 
was that we felt that the processes that we have are pretty 
rigorous, and that, as we look at other things, we do look at 
that. It is a bottom up process. But I never said I was opposed 
to acquiring wilderness areas in the East.
    Mr. Hansen. Not to get into a semantic game, ``acquiring,'' 
I would agree with your statement. How about studying the 
areas? If I read you right, you said you opposed studying those 
areas.
    Ms. McDougle. I oppose any new, different studies. What I 
said was that what we do as part of our planning process, we 
take a look, we do inventory roadless areas, and we make some 
determinations as to the suitability of these roadless areas as 
potential recommendations for wilderness.
    Mr. Hansen. I understand----
    Ms. McDougle. We have processes in place to do that.
    Mr. Hansen. I understand that the Forest Service is 
continually attempting to update its roadless area inventory; 
is that correct?
    Ms. McDougle. Yes, we do it on a forest-by-forest basis.
    Mr. Hansen. What is the status of those areas east of the 
100th meridian?
    Ms. McDougle. It varies by forest. Most of those forests 
are either scheduled or in the middle of plan revision, which 
includes a review of areas suitable for wilderness.
    Mr. Hansen. Could you tell this committee how many acres 
are pending for inclusion----
    Ms. McDougle. I can.
    Mr. Hansen.--east of the 100th meridian? Would you mind 
getting us that information?
    Ms. McDougle. I would be happy to.
    Mr. Hansen. What criteria are being used to conduct these 
reinventories in Forest Service land?
    Ms. McDougle. We have considerable criteria, which I will 
be happy to provide to this committee.
    Mr. Hansen. Well, wouldn't it be a true statement to say 
that criteria spelled out in H.R. 1567, which reduces the 
acreage size to 500 acres and considers areas for natural 
reclamation, give the Agency more flexibility in these roadless 
inventories?
    Ms. McDougle. Yes. We do consider smaller acreages, 5,000 
acres and above--and below 5,000 acres. I don't think we are 
anymore specific than below 5,000 acres.
    Mr. Hansen. As Mr. Jarvis pointed out, which was correct, 
he said in the 1964 wilderness bill that acres are 5,000 acres, 
and then there is a caveat to that. They can be smaller----
    Ms. McDougle. Right.
    Mr. Hansen. [continuing] predicated on different criteria.
    Ms. McDougle. Right.
    Mr. Hansen. This is the one that is probably the most 
unfair interpretation, though, is that it is like beauty, the 
eye of the beholder. Anybody goes in, and it can be next to an 
oil well on one side and a uranium mine on the other, and 
somebody put it in. And a good example of that is in Millard 
County in Utah, where there are mines and all types of things.
    We do not want to give the impression we are against 
wilderness, we just want to give the impression that it should 
be done correctly. There are a lot of small areas could come in 
that area, but I would hope that in fairness to this committee, 
that when you folks from the administration come up here, you 
can't come up here and argue strongly for the huge amounts in 
some of the western areas and overlook the idea that a lot of 
it is State, and a lot of it is private, and a lot of it has 
roads and then come in here and say, but we can't accept that 
criteria in the East. I mean, it has got to be kind of an equal 
deal, if I may say so.
    I could take you back for year after year when the Park 
Service, the BLM, and the Forest Service has come up here and 
made big arguments for huge amounts, and especially Secretary 
Babbitt, who came before this committee and said, I will not 
even look at anything less than 5,000 acres of BLM in the State 
of Utah. And yet when we asked him where it was, he couldn't do 
it. And we asked him again where it was, and he couldn't do it. 
And a third time he came up, he couldn't do it again.
    And so then, so he doesn't look foolish, he says, oh, well, 
we are reinventorying it. Well, come on. The first time around 
it is 5 million acres or nothing. But he didn't know where it 
was. But I think somebody had gotten to him and convinced him 
that way.
    And so those things bother us just a little bit. If we are 
going to use the criteria for the West, that same criteria 
should be used for the East. If we are going to talk roads, and 
others, Mr. Hinchey, our good friend from New York, we put a 
piece of wilderness in called Sterling Forest last year, later 
became the law and a bill signed by the President. We put that 
in wilderness. We took it out again.
    I will till the day I die enjoy Mr. Hinchey's comments when 
he said, oh, this doesn't qualify as wilderness. Yet, his own 
bill qualified as wilderness with roads, with structures, with 
mines, with ditches, with cities, even cities in it. Even 
cities qualified as wilderness in a western State. So if we are 
going to play this criteria fair, let's go honest on both sides 
of it, if I may respectfully say so.
    Mr. Kirby, I wanted to ask you and welcome any specific 
drafting changes that The Wilderness Society may be willing to 
provide on 1567. Please don't be hesitant. And I would give 
that same offer, if there is any interest, to the Park Service 
and the Forest Service who are with us, if they would like to 
perfect parts of it.
    If they just have bound over and say no, regardless of what 
you put, it is no, no, no, hey, well, don't waste your time. 
But if you are willing to open your minds and say maybe there 
is something for this, then we would be more than happy to do 
it.
    We don't make any claim of perfection. If anybody in 
Congress makes that claim, there is something wrong with them, 
because if we gave a gold metal to Queen Beatrice, somebody 
would argue about the language of how it was said. I mean, it 
doesn't happen that way.
    Mr. Kirby, do you want to comment?
    Mr. Kirby. Yes, Mr. Chairman. We just again want to 
reiterate the prototype that is available for this committee in 
H.R. 971, the Northern Forest Stewardship Act, to deal with 
this thorny question of private lands, because we do not 
support the review as it is currently provided for directly by 
the Federal Government of the private lands. We would like to 
engage the States and localities in the very careful way that 
is set out in that legislation, which, as you know, enjoys 
strong bipartisan support in the region.
    Mr. Hansen. I appreciate that. Keep us posted on whatever 
comments you may have.
    Do either of my colleagues have further comments for this 
panel?
    Mr. Radanovich. Just one question.
    Mr. Hansen. Gentleman from California.
    Mr. Radanovich. That would be that I be allowed to submit a 
couple questions for the record for the followup.
    Mr. Hansen. Without objection.
    The gentleman from--well, I want to thank the Park Service, 
Forest Service, Mr. Kirby for taking your time to be here. It 
is very kind of you. It has been very interesting. Too bad more 
Members of the committee weren't here. I am sure this would be 
a very lively discussion as we meet with you again. Thank you. 
We appreciate you all three being with us. This hearing is 
closed.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3700.001
    
    [GRAPHIC] [TIFF OMITTED] T3700.002
    
    [GRAPHIC] [TIFF OMITTED] T3700.003
    
    [GRAPHIC] [TIFF OMITTED] T3700.004
    
    [GRAPHIC] [TIFF OMITTED] T3700.005
    
    [GRAPHIC] [TIFF OMITTED] T3700.006
    
    [GRAPHIC] [TIFF OMITTED] T3700.007
    
    [GRAPHIC] [TIFF OMITTED] T3700.008
    
    [GRAPHIC] [TIFF OMITTED] T3700.009
    
    [GRAPHIC] [TIFF OMITTED] T3700.010
    
    [GRAPHIC] [TIFF OMITTED] T3700.011
    
    [GRAPHIC] [TIFF OMITTED] T3700.012
    
    [GRAPHIC] [TIFF OMITTED] T3700.013
    
    [GRAPHIC] [TIFF OMITTED] T3700.014
    
    [GRAPHIC] [TIFF OMITTED] T3700.015
    
    [GRAPHIC] [TIFF OMITTED] T3700.016
    
    [GRAPHIC] [TIFF OMITTED] T3700.017
    
    [GRAPHIC] [TIFF OMITTED] T3700.018
    
    [GRAPHIC] [TIFF OMITTED] T3700.019
    
    [GRAPHIC] [TIFF OMITTED] T3700.020
    
    [GRAPHIC] [TIFF OMITTED] T3700.021
    
    [GRAPHIC] [TIFF OMITTED] T3700.022
    
    [GRAPHIC] [TIFF OMITTED] T3700.023
    
    [GRAPHIC] [TIFF OMITTED] T3700.024
    
    [GRAPHIC] [TIFF OMITTED] T3700.025
    
    [GRAPHIC] [TIFF OMITTED] T3700.026
    
    [GRAPHIC] [TIFF OMITTED] T3700.027
    
    [GRAPHIC] [TIFF OMITTED] T3700.028
    
    [GRAPHIC] [TIFF OMITTED] T3700.029
    
    [GRAPHIC] [TIFF OMITTED] T3700.030
    

</pre></body></html>
